            REVIEW OF
 FEDERAL EMPLOYEES’ COMPENSATION
PROGRAM CUSTOMER SERVICE SURVEYS
  FOR THE EMPLOYMENT STANDARDS
          ADMINISTRATION




            U.S. Department of Labor
            Office of Inspector General
 Office of Analysis, Complaints and Evaluations




                                  Report Number: 2E-04-431-0002
                                   Date: May 17, 1999
                                                      Table of Contents


                                                                                                                                 Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

I. PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

II. BACKGROUND, SCOPE, AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

III. FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . 8
        1. Survey Design . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
        2. Measurement of Customer Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
        3. Sampling . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
        4. Response Rate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
        5. Survey Operations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

Appendix I: References . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

Appendix II: Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

Appendix III: Customer Service Questionnaires, 1994, 1996-1998 . . . . . . . . . . . . . . . . . 24




Acronyms

FEC                  Division of Federal Employees’ Compensation
FECA                 Federal Employees’ Compensation Act
GAO                  U.S. General Accounting Office
OIG                  Office of Inspector General, U.S. Department of Labor
OMB                  Office of Management and Budget
OWCP                 Office of Workers’ Compensation Programs




                                                                   1
                                  EXECUTIVE SUMMARY


The Office of the Inspector General (OIG) reviewed the Office of Workers’ Compensation
(OWCP) 1995 - 1998 customer service surveys, which were conducted by the Division of
Federal Employees’ Compensation (FEC). We analyzed the surveys’ methodology in
order to determine their accuracy and usefulness in providing sound information about
customer service. Although OWCP has made efforts to improve the surveys each year,
our analysis revealed the existence of methodological flaws in several areas, including
survey design, measurement of customer service, sampling, response rate, and survey
operations.

We make the following recommendations to enhance the accuracy of the data by
improving the survey methodology and thus help OWCP judge and improve the quality of
customer service provided by FEC.

Survey Design
1. Revise the questionnaire to shorten it, improve formatting of questions, and eliminate
   duplicate questions.
2. Reformat the questions to reduce the burden on claimants.
3. Conduct a pilot test for any future survey to increase clarity and relevance.

Measurement of Customer Service
Supplement reporting on customer service with focus group data.

Sampling
1. Draw a sample weighted to reflect the differences in sizes among the five claimant
   subgroups.
2. Analyze the sample to identify and eliminate overlap in sample selection from each
   subgroup.
3. Focus analysis of the survey data on only the key questions for which the research is
   being conducted.
4. Include additional analysis of samples, including: a comparison of the sample to the
   national claimant universe, using demographic variables and estimation of sampling
   error.

Response Rate
1. Establish higher standards for the response rate.
2. Include a cover letter on the contractor or DOL letterhead explaining at a minimum the
   importance of the survey, that participation is voluntary, a promise of confidentiality, and
   contact information for any questions.




                                              2
3. Review follow-up procedures to ensure that nonrespondents who do not return the
   survey after the first postcard receive a new copy of the survey with a different cover
   letter stating the urgency of the project.

Survey Operations
1. Keep a record of the surveys returned in the mail as undeliverable and identify the
   reason why they were returned.
2. Ensure that the claimants sampled have the necessary experience with agency
   services to be able to answer the questions that are asked.
3. Keep a copy of the final data set as a permanent agency record.

The following report contains our analysis, findings, and recommendations regarding the
methodology of the FEC customer service surveys. We provided a draft of this report to
OWCP. The agency response is found in the body of the report and in its entirety in
Appendix III. OWCP agreed to implement most of our recommendations if they conduct
another survey and we consider those recommendations OWCP agreed with resolved.
We are awaiting written confirmation of OWCP’s corrective actions so that we can close
the recommendations.




                                              3
I. PURPOSE

The Office of the Inspector General (OIG) conducted a review of the Office of Workers'
Compensation's (OWCP) 1994-1998 customer service surveys of claimants covered
under the Federal Employees’ Compensation Act (FECA). Because we believe that
OWCP's ability to effectively measure customer satisfaction with FECA service is critical
toward improving customer service, we analyzed the methodology of the surveys in order
to determine whether they provide accurate and useful information.

Earlier OIG and U.S. General Accounting Office (GAO) reports found no evidence of anti-
claimant bias on the part of OWCP1. However, while conducting research that resulted in
our Review of Medical Reimbursements and Authorization of Surgical Requests for the
Office of Workers’ Compensation Programs (1999), we requested a copy of the OWCP
customer service survey report. Upon examination, we found methodological flaws in the
questionnaire, casting doubt on the surveys' ability to provide accurate and useful
information to the agency on customer service.

To assess the surveys' ability to provide useful information on customer service, we
analyzed OWCP's customer service survey methodology in the following areas:
       $       Survey design,
       $       Measurement of customer service,
       $       Sampling,
       $       Response rate, and
       $       Survey operations


We conducted our review according to the Quality Standards for Inspections published by
the President's Council on Integrity and Efficiency.




1
 U.S. Department of Labor, Office of Inspector General, Review of FECA Program Administration, 1998.
U.S. Department of Labor, Office of Inspector General, Review of Medical Reimbursements and
Authorization of Surgical Requests for the Office of Workers' Compensation Programs, 1999. U.S.
General Accounting Office, Federal Employees' Compensation Act -- Non Evidence That Labor's Physical
Selection Processes Biased Claimants' Decisions, 1994.
                                                  4
II. BACKGROUND, SCOPE, AND METHODOLOGY


1. Background

OWCP has conducted an annual customer service survey of claimants covered under
FECA since 1995. The purpose of this survey, which focuses on customer service
process issues and not on adjudication, is to measure agency performance to monitor
customer service and for planning purposes. The agency samples five groups of
claimants: periodic roll payment recipients (who were in receipt of payments released
every 28 days for wage loss); daily roll payment recipients (claimants who receive
intermittent payments for wage loss); employees injured but with no salary loss; employees
whose claims for injury or disease have been denied; and employees who filed claims for
occupational disease. Management uses this information for monitoring customer service
and planning.

The first round of customer service surveys was conducted in-house. The agency sent the
surveys to respondents in June, 1994 and reported on its findings in 1995. Since then,
OWCP has hired a contractor to conduct the surveys. Customarily, OWCP mails the
surveys in March and the contractor records and analyzes the data and submits a formal
report on the findings by August of the same fiscal year. A contractor report has been
submitted to the agency each year the survey has been conducted.

OWCP contracted out the second round of surveys to Market Research Bureau, Inc. of
Washington, D.C. The contractor conducted the survey in September of 1995 and issued
a report in January of 1996. The sampling for this survey appears to have used the
previously determined claimant subgroups. According to the report, the agency mailed an
equal number of questionnaires (600) to the five client categories for a total of 3,000. The
returned questionnaires were sent to DOL and then forwarded to the contractor for
analysis. Six hundred and thirty-five were returned for a response rate of 21%. The
questionnaire included both open-ended and closed-ended questions and covered a
range of customer service related issues. This survey also allowed respondents to provide
verbatim comments that were not consistently analyzed from year to year.

Contractor D. M. Saunders was awarded the contract for the 1996 survey. To increase the
response rate in this round, OWCP made some changes: it increased the sample size by
500 and mailed follow-up postcards to nonrespondents. Data collection was completed in
February 1997 and the report was issued in May of 1997. OWCP reported the response
rate for this survey to be 29%.

The original contractor, Market Research, Inc., was awarded the contract for the 1998
survey. The number of followup postcards was increased to two and respondents were
given a deadline for returning the survey. The report based on data collected for this
survey was issued in 1998. In this survey the total response rate was 44%. To gather
                                             5
information on nonrespondents, a telephone interview supplemented this survey.


2. Scope

OIG reviewed customer service surveys conducted annually from 1994 -1998 by OWCP.
Our analysis focused on survey methodology in the following areas: survey design,
measurement of customer service, sampling, response rate, and survey operations. The
following issues were outside the scope of our review: efforts that may be occurring at the
district level to measure customer service; initiatives that OWCP may have taken to
improve customer service in response to survey information; performance planning that
may have been conducted using the data obtained from the surveys; and contracting
issues with regard to procurement of the survey.


3. Methodology

To analyze the methodological issues within the scope of our review, we inspected
customer service survey questionnaires and reports and written agency documentation,
policies, and procedures on how the survey was conducted; and held interviews with
OWCP officials.




                                             6
III. FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS

Based on all the information reviewed, OIG identified specific research methodology
deficiencies that detract from the ability to make inferences about the claimant population
from the sample. Our recommendations are designed to ensure that high quality data are
available for the agency=s management of customer service.

In order to make our recommendations immediately useful, we chose to only report on the
most salient issues that need attention. The following sections list our findings,
conclusions, and recommendations regarding (1) survey design, (2) measurement of
customer service, (3) sampling, (4) response rate, and (5) survey operations.


1. Survey Design

Our review found problems and deficiencies with regard to the length, construction, and
testing of the survey instrument. Specifically, we found that the questionnaire is too long;
the number of answer formats, as well as the sequencing of questions, is problematic; and
the questionnaire was never pilot tested. Appendix II contains copies of the questionnaires
for the 1996, 1997, and 1998 reports.

Questionnaire length. The survey is four pages long, which is excessive for the goals of
the annual customer service survey. The length of the questionnaire may encourage
respondents to rush or skip items, reducing the quality of the response. By making the
following revisions the questionnaire could be shortened to two pages. The first four
paragraphs of the survey should be moved to a cover letter, any duplicate questions should
be eliminated, and the questions could be reformatted to save space. Research shows
that shorter, focused questionnaires have a higher probability of yielding reliable
responses and higher response rates.

Questionnaire construction. The questionnaire construction is deficient. The
questionnaire uses nine types of formats interspersed throughout. For example, question
formats 1, 2a, 3, 4a, 4b, 5b, 5c, 6, and 7 in the 1998 survey are all different response
formats (see Appendix II). Using many answer formats makes it difficult for the respondent
to answer. The number of answer formats should be reduced to no more than four, and
questions should be grouped by the answer format used. Screening questions should be
located early in the questionnaire. For example, question 6 is a screening question and
should be asked early in the questionnaire (see Appendix II). Placing screening questions
early in the questionnaire has two advantages: it (1) prevents claimants from wasting their
time when they do not have the experience necessary to answer and (2) strengthens
survey findings. Improving the formatting will decrease the amount of time needed for
completion and improve the probability of response. Claimants who lack the necessary
experience will be screened out early and will not be burdened with completing the entire
questionnaire.
                                             7
Pilot test. No pilot test was conducted. The questionnaires were not tested with a small
group of claimants before they were used with thousands of claimants over the last 3
years. Testing a questionnaire before it is mailed to the entire sample can help the agency
learn whether the questionnaire is long and confusing to respondents and gauge whether it
is asking relevant questions.

       Recommendations

       1. Revise the questionnaire to shorten it, improve formatting of questions, and
          eliminate duplicate questions.

       OWCP Response
       “We agree with #1 that the questionnaire could benefit from being revised
       to shorten its length, improve the formatting and eliminate duplicate
       questions.”

       OIG Conclusion
       On the basis of OWCP’s response, we consider this recommendation resolved. To
       close this recommendation, we would appreciate receiving a printed copy of the
       revised questionnaire that is sent out to respondents.


       2. Reformat the questions to reduce the burden on claimants.

       OWCP Response
       “We agree with Recommendation #2 regarding the formatting of questions to put
       the like questions together. We would note, however, that OWCP/FEC has
       received no complaints from claimants through the past three years that there is
       undue 'burden' in completion of the questionnaires, as your report suggests.”

       OIG Conclusion
       On the basis of OWCP’s response, the issue of reformatting of questions is
       resolved. To close this recommendation, we would appreciate receiving a copy of
       the 1999 questionnaire as mailed to respondents. Although OWCP has received
       no adverse comments on the surveys, our assessment is that the low response
       rates may be claimant reaction to the “burden” created by a poorly-designed
       questionnaire. Research in this area shows that response rates go down when
       questionnaires are too long.




                                             8
       3. Conduct a pilot test for any future survey to increase clarity and relevance.

       OWCP Response
       “We agree with Recommendation #3 that a pilot test may be useful should we
       substantially revise the survey in the future.”

       OIG Conclusion
       On the basis of OWCP’s response, we consider this recommendation resolved.
       To close this recommendation, we would appreciate receiving a copy of the pilot
       test methodology and results.


2. Measurement of Customer Service

The use of a single questionnaire can result in unreliable reporting. It is advisable that the
agency measure customer service through a variety of data sources instead of relying
solely on one survey.

Reporting on customer service. Even if a survey is conducted perfectly, it cannot
capture all the dimensions of a multifaceted topic such as customer service. Focus groups
are particularly useful for exploring issues and can contribute a clear understanding of
customer service2. In addition, programmatic areas that require improvement are more
likely to be identified, making it possible to correct customer service problems before they
escalate.

       Recommendation

       Supplement reporting on customer service with focus group data.

       OWCP Response
       “We will review this suggestion, to supplement the use of a survey on customer
       satisfaction by using focus groups, depending on the availability of funding.”

       OIG Conclusion
       On the basis of OWCP’s response, we do not consider this recommendation
       resolved. As stated in our report, we believe that, to have valid and useful
       information, the agency needs to collect information from more than one source.




2
 William G. Zikmund, Business Research Methods, 3rd ed. (Belmont, CA: Wadsworth
Publishing Company, 1989), p. 82.
                                        9
3. Sampling

Examination of the sample revealed that it was not proportional to the different subgroups
comprising the entire group of claimants. Further, our review disclosed that (1) the
categories of claimant groups were not mutually exclusive, thereby raising the potential for
overlap; (2) District Office comparisons were not statistically valid for the 1997 and 1998
surveys; and, (3) no analysis was conducted by the agency to ensure the sample
approximated the entire group’s characteristics.

The sample. The sample drawn was not proportional to the different subgroups
comprising the entire group of claimants. The different subgroups of claimants vary in size.
Some of the five groups are over-sampled while others are under-sampled. The five
claimant subgroups, the number of claimants in each subgroup, and the number of
questionnaires sent to each group can be found below in Table 1.

Table 1
Identification of 1998 FEC Claimant Subgroups and their Size

 Claimant Subgroup at the Time                      Number               Questionnaires
 Sample Was Drawn                                   Of Claimants         Sent

 1. Periodic Roll Payment Recipients                            49,000                  689
    (Claimants who were in receipt of payments
    released every 28 days for wage loss)

 2. Daily Roll Payment Recipients                                9,200                  680
    (Claimants who received intermittent
    payments for wage loss)

 3. Injured Employees with No Wage Loss                       154,000                   699

 4. Employees Whose Claims for                                  24,000                  618
    Injury/Disease Have Been Denied

 5. Employees Who Filed Claims For                              27,000                  700
    Occupational Disease



For example, there are 154,000 claimants with no lost time from work and only
24,000 claimants who have been denied a claim. Sampling a virtually equal
number from these two groups and the three others does not reflect the
proportional differences in the national claimant population. To report on the
national population of claimants, weighting of the sample needs to be



                                             10
considered.3 Because the sample drawn was not proportional to the different
subgroups, it likely does not represent the national universe of claimants. This
means that analytical results reported on the data gathered probably do not
represent the national claimant population when responses of all subgroups are
added to form an aggregate measure.

Categories of claimants. The categories of claimant groups are not mutually exclusive,
thereby raising the potential for overlap. This means that a claimant may be included in
more than one subgroup. The samples from 1994-1998 could have been contaminated by
sampling the same claimant more than once. Analyzing the sample by running a cross
reference of case file numbers to identify repeated cases will protect it against including
respondents in more than one category. In addition, the analytical findings of the data can
be accepted with greater confidence.

Comparison of District Office performance. Comparison of District Offices was not
statistically valid for the 1997 or 1998 surveys, because (1) the sample sizes for
comparison were not large enough and (2) comparing District Office performance was not
one of the key research questions listed in the agency’s documentation. Analysis of survey
data should be focused on the key questions for which the research is being conducted to
avoid findings that are not statistically valid. Otherwise, District Offices may receive invalid
feedback on their performance. Research is enhanced by ensuring consistency and a
focused analyses in each part of the survey.

Relationship between sample and claimant population. No analysis was conducted
to ensure that the sample used approximated the characteristics of the entire group and to
estimate the sampling error. We did not find that any comparison of the sample to the
population was done using demographic variables such as age and gender. Conducting
this analysis would indicate whether the samples drawn match the target FEC claimant
population on such characteristics as age and gender.

Another analysis that is standard practice includes estimating sampling error. Sampling
error is expressed by stating the confidence level and the confidence interval. In national
opinion polling, the confidence interval is often expressed as +/- a given percentage (or
probability that the sample represents the population of interest). Without such
comparison, there is no assurance that the sample is representative of the population.
Conducting analysis to determine the sample quality will ensure that the sample is
representative of claimants nationwide.




3
 Earl Babbie, The Practice of Social Research, 5th ed. (New York: Wiley and Sons, 1989)
p. 198
                                          11
Recommendations

     1. Draw a sample weighted to reflect the differences in sizes among the five
        claimant subgroups for reporting national aggregated data.

     OWCP Response
     “We agree with Recommendation #1, regarding weighting the sample. It should
     be noted, however, that OWCP's original design sought to determine satisfaction
     among each of the different types of claimants. We continue to need that level of
     specific information to guide our efforts.”

     OIG Conclusion
     Based on OWCP’s response, we consider this recommendation resolved. To
     close this recommendation, we would appreciate receiving written evidence that the
     sample was weighted to reflect the differences in sizes among the five claimant
     subgroups.


     2. Analyze the sample to identify and eliminate overlap in sample selection from
        each subgroup.

     OWCP Response
     “We agree to analyze the sample to identify and eliminate any overlap in sample
     selection from each subgroup.”

     OIG Conclusion
     Based on OWCP’s response, we consider this recommendation resolved. To
     close this recommendation, we would appreciate receiving written evidence that
     OWCP has analyzed the sample to identify and eliminate overlap in sample
     selection from each subgroup.




                                         12
       3. Focus analysis of the survey data on only the key questions for which the
          research is being conducted.

       OWCP Response
       “We agree in general with #3 that focusing the analysis of the survey data
       on the key questions may improve the contractor's report. However, the
       program believes that discussion of district office level data, while not
       necessarily statistically valid, can be useful in guiding individual offices'
       communication plans.”

       OIG Conclusion
       On the basis of OWCP’s response, this recommendation is not resolved. We
       believe that feedback using data that may not be valid can be misleading rather
       than helpful. In this case, we do not know who the respondents are.


       4. Conduct additional analysis of samples, including: a comparison of the sample
       to the national claimant universe, using demographic variables and estimation of
       sampling error.

       OWCP Response
       “We agree to conduct additional analysis of samples, including: a comparison of
       the sample to the national claimant universe, using demographic variables and
       estimation of sampling error.”

       OIG Conclusion
       On the basis of OWCP’s response, we consider this recommendation resolved.
       To close this recommendation, we would appreciate receiving written evidence that
       OWCP has conducted additional analysis of samples, including: a comparison of
       the sample to the national claimant universe, using demographic variables and
       estimation of sampling error.


4. Response Rate

The questionnaire response rate is considerably below the OMB standard of 80%. In
addition, the agency needs to (1) reinstate the use of a cover letter to minimize claimant
confusion and improve response rates, and (2) improve follow-up methods.




                                             13
OMB standard. The response rate on the questionnaires is low. OMB has a response
rate standard of 80% for all surveys, a standard that is supported by many research
experts.4 The response rates on the surveys we analyzed were 21% in 1996, 29% in
1997, and 44% in 1998. Although the response rate is improving, it remains below
standard. A low response rate means that the responses received may not be
representative of the population of claimants, resulting in response bias. Setting a higher
standard will improve the probability of a higher response rate, which will improve the
accuracy of descriptions about the population.

Cover letter. After the first year, no cover letter was attached to the questionnaire that
was sent to claimants. Using a cover letter has been found to improve the response rate.5
Sending the survey form by itself weakens communication on critical topics that impact the
response rate. The cover letter included in the mailing with the questionnaire explains, at a
minimum, the survey's importance and protections of anonymity or confidentiality, and
offers a point of contact for additional information. The cover letter also provides a place
for an explanation of technical terms such as "anonymous" or “confidential.” The cover
letter minimizes claimant confusion and highlights the importance of the survey. Claimants
also understand their rights for participation or refusal.

Addressing nonresponse. Follow-up methods to address nonresponse have been
inadequate. Specifically, follow-up methods were not substantially updated in response to
inadequate response rates. Although OWCP has tried to increase the response rate
through the use of postcards and telephone follow-up, the response rate remains low. One
option for improving follow-up is to ensure that nonrespondents who do not return the
survey after the first postcard receive a new copy of the survey with a different cover letter,
stating the urgency of the project. By changing follow-up methods, the response rate can
be improved, OWCP can learn what particular methods are most effective, and the data
can be protected against response bias6.

       S




4
  Zikmund, p. 175, and Babbie, p.242.
5
  Don A. Dillman, Mail and Telephone Surveys: The Total Design Method (New York:
Wiley and Sons, 1978) p. 165, and Zikmund p. 176.
6
  A response bias occurs when nonrespondents self-select or respondents tend to answer
in a certain pattern, thus skewing the direction of responses.
                                               14
Recommendations

1. Establish higher standards for the response rate.

OWCP Response
“We agree with Recommendation #1 that we seek to hold the contractor to a
higher standard for response rates. We will include this in future work statements.
However, we anticipate that the cost of requiring such a response rate may be
substantially higher. Even using a fixed price contract with a mandated response
rate, the OMB goal of 80% may not be attainable. OWCP also notes that it
required the 1998 contractor to conduct a telephone survey which measured non-
respondents' attitudes. This was not aimed at increasing response rates; this
data set was used to determine whether or not the non-respondent population
held views similar to those measured for the respondents. As reported in that
survey, the two groups had comparable scores, providing increased confidence in
the reported statistics.”

OIG Conclusion
On the basis of OWCP’s response, we do not consider this recommendation
resolved. The agency’s goal/expectation falls short of OMB’s 80% response
standard. We do not concur with OWCP’s position regarding funding constraints.
The recommendations we are making are standard professional practices and the
contractor should conduct them for no additional charge. Implementing the
recommendations can be expected to increase the response rate and allow
savings through a decreased sample size. In addition, valid information will provide
the organization with a valuable management tool that can help save resources by
making the organization more productive.


2. Include a cover letter on the contractor or DOL letterhead explaining at a
   minimum the importance of the survey, that participation is voluntary, a promise
   of confidentiality, and contact information for any questions.

OWCP Response
“We agree with Recommendation #2, to add a cover letter from the FEC
program to explain the importance of the survey.”

OIG Conclusion
On the basis of OWCP’s response, we consider this recommendation resolved. To
close this recommendation, we would appreciate receiving a copy of the 1999
questionnaire with the cover letter.



                                     15
16
       3. Review follow-up procedures to ensure that nonrespondents who do not return
          the survey after the first postcard receive a new copy of the survey with a
          different cover letter stating the urgency of the project.

       OWCP Response
       “We do not agree with Recommendation #3 that an additional copy of the survey
       itself should be mailed, since the survey is anonymous and there is no record of
       who are the "non-respondents". To implement this would allow for duplicate
       submission of the survey by a given respondent (see Recommendation #2
       regarding sampling, requiring that we avoid duplicate replies). OWCP has
       scrupulously maintained the anonymity of the survey respondents, and coding
       the surveys to allow identification of responses could undermine confidence in
       that process.”

       OIG Conclusion
       On the basis of OWCP’s response, we do not consider this recommendation
       resolved. OWCP may want to consider ensuring confidentiality, rather than
       anonymity (as is the practice in most customer surveys), to make it easier to
       implement this recommendation.

5. Survey Operations

We found problems/deficiencies with regard to the survey process, i.e., returned surveys,
sample-questions relationship and record-keeping. Specifically, we found that no records
are kept or analyses conducted of surveys returned in the mail as undeliverable; the
sample drawn in 1998 did not support the questions asked in the questionnaire; and, no
final data sets are kept on file by the agency after completion of analysis and reporting.

Returned surveys. No records are kept or analysis is conducted with surveys that are
returned in the mail without ever having reached the addressee. Returned surveys were
set aside without inquiry into why they were returned. As a result, follow-up postcards and
questionnaires may have been sent to the original wrong addresses. Analyzing returned
surveys enables the agency to correct potential mailing problems so that they do not
reoccur each year.

Relationship between sample and questions. The sample drawn in 1998 did not
support the questions asked in the questionnaire. The sample was pulled to include
individuals who had some contact with the agency between October 1, 1996, and
September 30, 1997. However, the questionnaire was not sent until the second week of
March 1998. The questionnaire stated in eight places that respondents were to answer
the questions based on their last 12 months of experiences with agency services.


                                            17
However, many of the claimants included in the sample did not have experience with the
agency within the last 12 months specified. As a result, many claimants may have
believed the questionnaire did not apply to them. Since a high proportion of respondents
did not have contact or experience with the office in the previous year, they had no basis to
respond to questions relating to their satisfaction. When the sample supports the
questions asked, the probability of a higher response rate increases and claimants who do
not have the necessary experience with agency services are not unduly burdened.
Establishing consistency between the sample and the questionnaire improves the quality
of the data collected.

Record-keeping. No final data sets are kept on file after completion of analysis and
reporting. No data sets are available for the surveys for any of the years that they were
conducted, as a hard copy document or on a statistical or spreadsheet software program.
Because of incomplete records, the data and research conducted can not be verified. In
addition, an opportunity for subsequent research with the data sets is missed. Thus,
valuable information is lost. Records that include data collected can be used to verify the
research conducted. The data can also be analyzed to answer additional questions to
support management decisions.

       Recommendations

       1. Keep a record of the returned surveys and identify the reason why they were
          returned.

       OWCP Response
       “We agree to keep a record of the returned surveys and identify the reason why
       they were returned.”

       OIG Conclusion
       On the basis of OWCP’s response, we consider this recommendation resolved. To
       close this recommendation, we would appreciate receiving written evidence that
       OWCP has kept a record of the returned surveys and has identified the reason why
       they were returned.


       2. Ensure that the claimants sampled have the necessary experience with agency
       services to be able to answer the questions that are asked.

       OWCP Response
       “We agree that the time period we use as the basis for drawing the
       sample should be coordinated with the time frame specified in the



                                             18
      questionnaire, and that the questionnaires should be distributed as close
      as possible to that time frame.”
      OIG Conclusion
      On the basis of OWCP’s response, we consider this recommendation resolved. To
      close this recommendation, we would appreciate receiving written evidence that
      claimants sampled in the next survey had experience with the office in the previous
      12 months.


      3. Keep a copy of the final data set as a permanent agency record.

      OWCP Response
      “We agree with Recommendation #3 that the full data sets derived from
      the questionnaire by the contract be provided back to FEC as one of the
      project deliverables.”

      OIG Conclusion
      On the basis of OWCP’s response, we consider this recommendation resolved. To
      close this recommendation, we would appreciate the opportunity to inspect the data
      sets received by OWCP.


Major Contributors
Amy C. Friedlander, Director, Division of Evaluations and Inspections
Teserach Ketema, Team Leader
George T. Fitzelle, Project Leader




                                           19
                                     Appendix I

                                     References

Babbie, E. (1989). The Practice of Social Research, (5th ed.). Belmont, CA: Wadsworth
Publishing Company.

Dillman, D. (1978). Mail and Telephone Surveys: the Total Design Method. New York:
Wiley and Sons.

Dillman, D. and Salant, P. (1994). How to Conduct Your Own Survey. New York: Wiley
and Sons.

Mandell, B. (1984). Statistics for Management. Baltimore, MD: Dangary Publishing
Company.

Perrin, B. (1998). Effective Use and Misuse of Performance Measurement. American
Journal of Evaluation, Vol. 19(3), p.367-379.

Zikmund, W. (1991). Business Research Methods, (3rd ed.). Orlando, FL:
Holt, Rinehart and Winston.




                                         20
                  Appendix II

Agency Response




                      21
                                 Appendix III

Customer Service Questionnaires, 1994, 1996-1998




                                     24
